NO.
In the
Supreme Court of the United States

BAHAR MIKHAK,
Petitioner,
v.
UNIVERSITY OF PHOENIX (UOP),
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h),
I certify that Bahar Mikhak’s PETITION FOR WRIT
OF CERTIORARI contains 8979 words, including
the parts of the Brief that are required or excluding
the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on January 25, 2020.

i-

i
."

BAHAR MIKHAK
25595 COMPTON COURT
APT 103
HAYWARD, CA 94544
(415) 845-0141
MIKHAKB@HOTMAIL.COM

